Supreme Court, U.S.
FILED

/• , '

V

FEB 0 1 2021

y

Docket No. 30-1103
In the Supreme Court of the United States

OFFICE OF THE CLERK

♦

I

MICHAEL JAMES HANNA,

r

Petitioner
v.

LITTLE LEAGUE BASEBALL, INC.,
Respondents.
s
PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEAL OF CALIFORNIA
FOURTH DISTRICT DIVISION TWO

Michael James Hanna
Petitioner Pro Se
33070 Big Range Drive
Winchester, CA 92545
surfwav2000@gmail.com

ORIGINAL
if
s

m

s-

QUESTIONS PRESENTED
Whether California’s vexatious litigant statute unconstitutionally deprives a
litigant of due process and access to the courts, by declaring a pro se litigant
vexatious, and precluding the litigant from filing further actions absent prior
permission.
LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
LIST OF ALL PROCEEDINGS
There are no other relevant proceedings.

1

*

TABLE OF CONTENTS
QUESTIONS PRESENTED

I

LIST OF PARTIES

1

LIST OF ALL PROCEEDINGS

I

TABLE OF CONTENTS

n

TABLE OF AUTHORITIES

r

111

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

HOW THE CALIFORNIA STATUTE OPERATES

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

5

CONCLUSION

7

Certificate of Service

8

Appendix
A1

Opinion of the Court of Appeal
Order of California Supreme Court denying review

A21

California Vexatious Litigant Statute

A22

li

*

TABLE OF AUTHORITIES
FEDERAL CASES
7

Clark v. Martinez, 543 U.S. 371 (2005)

DeLong v. Hennessey, 912 F.2d 1144 (9th Cir. 1990)

5, 6

In re Oliver, 682 F.2d 433 (3d Cir. 1982)

6

In re Powell, 851 F.2d 427 (D.C. Cir. 1988)

5

Moy v. United States, 906 F.2d 467 (9th Cir. 1990)

6

Sessions v. Dimaya, 138 S.Ct. 1204 (2018)

5

United States v. Davis, 139 S.Ct. 2319 (2019)

5, 6

STATE CASES
Bravo v. Ismaj, 99 Cal.App.4th 211, 120 Cal. Rptr. 2d 879 (2002)

3

Hanna v. Little League Baseball, Inc., 53 Cal.App.5th 871, 267 Cal.Rptr.3d 845
(2020)...........................................................................................................................

1

People v. Harrison, 92 Cal.App.4th 780, 112 Cal.Rptr.2d 91 (2001)

3

STATE STATUTES
Cal. Code Civ. Proc. § 391(b)

2

Cal. Code Civ. Proc. § 391.7

2

iii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the Court of Appeal is partially reported at Hanna v. Little
League Baseball, Inc., 53 Cal.App.5th 871, 267 Cal.Rptr.3d 845 (2020) and is set
forth in full in the Appendix at Al. The California Supreme Court denied further
review without opinion. S264586. Its order is in the Appendix at A21.
JURISDICTION
The Court of Appeal issued its decision on August 18, 2020. The California
Supreme Court denied review on November 18, 2020.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 1 of the Fourteenth Amendment to the United States Constitution provides the
following:
All persons bom or naturalized in the United States and subject to
the jurisdiction thereof, are citizens of the United States and of the
state wherein they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life,
liberty, or property without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

1

California’s “vexatious litigant statute” (Cal. Code Civ. Proc. §§ 391-391.8), in its
entirety, is reproduced in the Appendix at A22.
The key provisions relevant here are:
§ 391(b), under “Definitions,” which provides that:
“Vexatious litigant” means a person who does any of the following: (1) In the
immediately preceding seven-years period has commenced, prosecuted, or maintained in propria
persona at least five litigations other than in a small claims court that have been (i) finally
determined adversely to the person ....
§ 391.7, “prefiling order,” provides that:
(a) In addition to any other relief provided in this title, the court may, on its own motion
or the motion of any party, enter a prefiling order which prohibits a vexatious litigant from filing
any new litigation in the courts of this state in propria persona without first obtaining leave of the
presiding justice or presiding judge of the court where the litigation is proposed to be filed....
(b) The presiding justice or presiding judge shall permit the filing of that litigation only if
it appears that the litigation has merit and has not been filed for the purposes of harassment or
delay....
HOW THE CALIFORNIA STATUTE OPERATES
California’s vexatious litigant statute classifies pro se plaintiffs as “vexatious” for having
received five final adverse determinations in seven years, without considering whether the
litigations are reasonably based. Once the litigant has met the quota, the litigant qualifies also for
receiving a prefiling order of the broadest scope, which restricts the filing of any new litigation.
For assessing the merits of a proposed litigation, the statute requires the presiding judge to apply
2

the “it appears” standard which (a) calls for speculation; (b) appeals to the judge's personal
predilections; and (c) invites arbitrary rule.
In addition, the entry of such an order is not independently appealable. See People v.
Harrison, 92 Cal.App.4th 780, 785, fn. 6, 112 Cal.Rptr.2d 91 (2001). The California Courts have
held that its vexatious litigant statutes are constitutional and do not deprive a litigant of due
process of law. See Bravo v. Ismaj, 99 Cal.App.4th 211, 120 Cal. Rptr. 2d 879 (2002).
STATEMENT OF THE CASE
Plaintiff Michael Hanna was declared to be a vexatious litigant under several
subparts of the California Code of Civil Procedure section 391(b). As a result, and
the trial court’s determination that Hanna was not reasonably likely to succeed on
the merits of this action, Hanna was ordered to furnish a $100,000 security bond.
The trial court also imposed a prefiling restriction on Hanna in future litigation,
requiring Hanna to seek permission from the presiding justice or presiding judge of
the court if he brought a civil action as a pro se litigant.
The underlying dispute arose from a 2017 complaint Hanna filed against
Little League Baseball, Inc., alleging trade libel and unfair and fraudulent business
practices. Hanna alleged he was the president of a youth sports organization known
as Team Hemet Baseball and Softball (Team Hemet), and in that capacity, he
“executed an agreement” with Little League “for the individual ‘. . . right to conduct
a baseball and softball program under the name “Little League’”” for one year.
In July 2017, Little League “purportedly” placed Team Hemet on a regional
3

hold, which “prevented] any operations by [Team Hemet] until satisfied.” Hanna
alleged that Little League “ha[d] improperly obtained money from [Hanna], and
continue[d] to improperly obtain money from the general public.”
The trial court dismissed the trade libel claim on demurrer. Little League
moved for an order finding Hanna to be a vexatious litigant and requiring him to
furnish security, and requested the court judicially notice 14 different civil actions
filed from 2009 through 2018 involving Hanna as a pro se plaintiff and a defendant.
Insofar as now pertinent, Hanna challenged the vexatious litigant determination
and the determination that he was not likely to succeed on the merits of the action.
The Court of Appeal affirmed the prefiling restriction placed on Hanna’s
filing of future actions as a pro se litigant.
No court addressed the merits of the underlying litigation. No court
determined that the action was frivolous.

4

REASONS FOR GRANTING THE PETITION
Vague laws invite arbitrary power. Vague laws, in violation of constitutional
due process, fail to provide ordinary people fair warning and leave the people in the
dark about what the law demands. Vague laws also undermine the constitutional
separation of powers by allowing prosecutors and courts to make it up. Sessions v.
Dimaya, 138 S.Ct. 1204, 1223-1224, 1227 (2018). “In our constitutional order, a
vague law is no law at all.” Ibid. When Congress or the Legislature passes a vague
law, the role of courts under our Constitution is not to fashion a new, clearer law to
take its place, but to treat the law as a nullity and invite Congress or the
Legislature to try again. See United States u. Davis, 139 S.Ct. 2319, 2323, 2336
(2019). California’s “vexatious litigant statute” is such a law.
It uses a categorical approach and vague language, leaving the underlying
reasoning far from being clear. It is five loses and you are out, regardless of the
merits of the dismissed cases.
Federal courts, recognizing the First Amendment right to petition the courts,
reject the California rule. Rather, “orders restricting a person’s access to the courts
must be based on adequate justification supported in the record and narrowly
tailored to address the abuse perceived.” DeLong v. Hennessey, 912 F.2d 1144, 1149
(9th Cir. 1990). Before issuing such an order, a court must “make ‘substantive
findings as to the frivolous or harassing nature of the litigant’s actions.’” Id. at 1148
(quoting In re Powell, 851 F.2d 427, 431, 271 U.S. App. D.C. 172 (D.C. Cir. 1988));
5

see also Moy v. United States, 906 F.2d 467, 470 (9th Cir. 1990) (“plaintiffs claims
must not only be numerous, but also be patently without merit”). “’To make such a
finding, the district court needs to look at ‘both the number and content of the
filings as indicia’ of the frivolousness of the litigant’s claims.” DeLong, 912 F.2d at
1148. “[L]egitimate claims should receive a full and fair hearing no matter how
litigious the plaintiff may be.” In re Oliver, 682 F.2d 433, 446 (3d Cir. 1982).
That does not occur under the California scheme. The “it appears” standard
leans on the judge’s intuition and imagination, and has led to the widespread
dismissal of meritorious claims. Lacking sufficient guidance, the statute also
requires guesswork and invites arbitrary enforcement, which, unfortunately, many
California state courts have eagerly embraced. “It appears” calls on what the judge
sees intuitively, and forces the judge to imagine what horrific things the plaintiff
might have done to legally qualify as a “vexatious litigant.”
Black’s Law Dictionary defines a “vexatious litigant” as a “litigant who
repeatedly files frivolous lawsuits.” LITIGANT, Black’s Law Dictionary (11th ed.
2019). Thus, it is commonly understood that repeatedly filing suits that are
dismissed is not enough. They must be frivolous.
No fair alternative interpretation of the statute exists for constitutional
avoidance to apply. Apphcation of the canon of constitutional avoidance requires the
available of fair alternatives. United States v. Davis, supra, at p. 2332. The canon is
a tool for choosing between competing plausible interpretations of a statutory text,
6

resting on the reasonable presumption that Congress did not intend the alternative
which would raise serious constitutional doubts. “The canon is thus a means of
giving effect to congressional intent, not of subverting it.” Clark v. Martinez, 543
U.S. 371, 381-382 (2005).
In the case of California’s “vexatious litigant statute,” however, courts cannot
interpret away either the categorical statutory definition for “vexatious litigant,” or
the vague and uncertain “it appears” which requires guesswork and invites
arbitrary enforcement, or the over-broad one-size-fits-all prefiling order. As such, no
viable alternative exists for the constitutional avoidance canon to apply.
Declaring these statutory provisions in California’s “vexatious litigant
statute” unconstitutional is, therefore, a necessity. Meanwhile, California will not
be at a loss because California may still simply adhere to the well-reasoned
precedents of this Court and other federal courts as to what due process and
separation of powers require.
CONCLUSION
The petition for a writ of certiorari should be granted.
Dated: February 1, 2021

7

